                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




         AGREED-UPON PROCEDURES FOR
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE
             GRANTS AWARDED TO
       EDNA MCCONNELL CLARK FOUNDATION

                    OIG REPORT 13-06




                            Prepared by:

                      CliftonLarsonAllen LLP
                      11710 Beltsville Drive
                             Suite. 300
                       Calverton, MD 20705




This report was issued to Corporation management on June 6, 2013. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
December 6, 2013 and complete its corrective actions by June 6, 2014. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                         June 6, 2013



TO:            Lois Nembhard
               Deputy Director of Operations, SIF

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 13-06, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Edna McConnell Clark Foundation
               (EMCF)


Attached is the final report for the above noted engagement. This agreed-upon procedure
engagement was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards, issued
by the Comptroller General of the United States.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by December 6, 2013. Notice of final action is due by June 6, 2013.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment



cc:     Ralph Stefano, Chief Financial & Administrative Officer, EMCF
        William Moon, Controller, EMCF
        Shivangi Shah, Finance Senior Associate, EMCF
        David Rebich, Chief Financial Officer, CNCS
        Claire Moreno, Audit Liaison, CNCS
        Karen Gandolfo, Audit Resolution Specialist, CNCS
        Denise Wu, Partner, CliftonLarsonAllen LLP
                      AGREED-UPON PROCEDURES FOR CORPORATION GRANTS
                       AWARDED TO EDNA MCCONNELL CLARK FOUNDATION


                                           TABLE OF CONTENTS

                                                                                                           PAGE

EXECUTIVE SUMMARY .....................................................................................          1

INTRODUCTION..................................................................................................... 2

SUMMARY OF RESULTS ...................................................................................           2

INDEPENDENT ACCOUNTANT’S REPORT .......................................................                          5

SCHEDULE A – CONSOLIDATED SCHEDULE OF CLAIMED AND
             QUESTIONED COSTS .............................................................                      7

SCHEDULE B – SCHEDULE OF AWARD AND CLAIMED COSTS:
             Edna McConnell Clark Foundation ............................................                        8

SCHEDULE C – SCHEDULE OF AWARD AND CLAIMED COSTS:
             SEED Foundation ......................................................................              9

SCHEDULE D – SCHEDULE OF AWARD AND CLAIMED COSTS:
             Building Educated Leaders for Life ........................................... 10

SCHEDULE E – SCHEDULE OF AWARD AND CLAIMED COSTS:
             Center for Employment Opportunities ....................................... 11

DETAILED FINDINGS ......................................................................................... 12

BACKGROUND .................................................................................................. 23

AGREED-UPON PROCEDURES SCOPE .......................................................... 24

EXIT CONFERENCE .......................................................................................... 24


APPENDIX A:            EMCF’S RESPONSE TO DRAFT REPORT

APPENDIX B:            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
                       RESPONSE TO DRAFT REPORT




                                                            i
                                                                     CliftonLarsonAllen LLP
                                                                     www.cliftonlarsonallen.com




                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with CliftonLarsonAllen LLP, an independent certified public
accounting firm, to perform agreed-upon procedures (AUP) on grant costs incurred by the Edna
McConnell Clark Foundation (EMCF) and three of its subgrantees. EMCF is an intermediary
grantee under the Corporation’s Social Innovation Fund (SIF). This review also tested EMCF’s
compliance with Corporation policies and applicable regulations for Corporation-funded Federal
assistance. In addition to reviewing EMCF’s SIF grant administration, we selected the following
EMCF subgrantees for detailed testing:

        The SEED Foundation (SEED)
        Building Educated Leaders for Life (BELL)
        Center for Employment Opportunities (CEO)

These subgrantees were judgmentally selected based on an assessment of overall risk to
EMCF and the Corporation. The assessment included consideration of several factors, namely
the amount of costs claimed by each subgrantee, the results of subgrantee monitoring reports,
and findings, if any, contained in Circular A-133 single audit reports for each entity. Our
procedures resulted in total questioned grant costs of $647,535, consisting of $348,413 in
Federal share, EMCF match costs of $83,270, and subgrantee match costs of $215,852. We
also identified six instances of noncompliance with the United States Code of Federal
Regulations, the Corporation’s grant requirements, and the subgrantees’ own policies and
procedures.

One significant internal control weakness involves CEO’s failure to remove two of its
employees, who were known by CEO management to have criminal histories that made them
ineligible, from working on the SIF grant. Federal statutes prohibit such individuals from serving
in this capacity. CEO attributed this situation to a lack of communication between members of
its staff.

We found that the three subgrantees are generally free of major financial weaknesses. The
questioned costs shown above, although material, are related primarily to deficiencies in the
procedures used to conduct criminal history and sex offender background checks, a pervasive
compliance finding affecting each of the subgrantees. Of the $647,535 amount, SEED’s
questioned Federal costs of $290,251 and match costs of $70,489 (SEED) and $34,455
(EMCF) represent nearly 61 percent of the total. Further details on each subgrantee’s claimed
and questioned costs are at Schedules B, C, and D. Compliance findings and recommendations
are discussed in the Detailed Findings section of this report beginning at page 12.

EMCF and subgrantee match represents a significant amount of the questioned costs. As of
September 30, 2012, EMCF was $2,132,373 short of meeting its match requirements; however
Grant 10SIHNY003 is still an active grant and the grantee has until the end of the grant term
(July 31, 2015) to fulfill its match obligation.




                                                1
EMCF has contracted with a New York City-based independent audit firm to perform subgrantee
monitoring through periodic site visits and desk audits. These activities, which may account for
the financial stability of the three subgrantees, include reviews of payroll expenses, indirect
costs, travel, and supplies expenses.

                                       INTRODUCTION

The SIF grant program was inaugurated by the Corporation in 2010 as part of the Edward M.
Kennedy Serve America Act, enacted in 2009. The purpose of the program is to mobilize public
and private resources to assist in the growth of community-based nonprofit organizations. The
Corporation’s SIF grant awards are between $1 million and $10 million per year, for up to five
consecutive years, to intermediary grantees that conduct competitions to make subawards to
deserving nonprofits which have implemented program models consistent with the SIF mission
objectives. Since 2010, the program has awarded grants to 20 intermediaries, which in turn
have selected 201 subgrantees based in 34 States and the District of Columbia. In the
aggregate, the Corporation has awarded SIF grants totaling $137 million in the first three years
of the program’s existence, which have generated approximately $350 million in matching
commitments from private sector entities.

EMCF was one of the first awardees in the 2010 inaugural group. Funds received by EMCF
have been subawarded to nine non-profits that provide services to economically disadvantaged
youths ranging in age from 9 to 24 years. EMCF channels its SIF funding toward improving
academic skills and achievement, preparing youth for employment opportunities, and avoiding
high-risk behaviors, such as criminal activity and teen pregnancy. The subawards include both
Federal funding and EMCF-provided funding that matches dollar-for-dollar the amount of
Federal funding in each award. Subgrantees are required to provide match funding equal to the
total amount of the subawards they receive from EMCF.

                                  SUMMARY OF RESULTS

The results of our agreed-upon procedures are summarized in the Consolidated Schedule of
Claimed and Questioned Costs (Schedule A).
EMCF claimed total Federal costs of $9,560,710 and total match costs of $17,951,648 from
August 1, 2010, through September 30, 2012, for SIF grant number 10SIHNY003. Based on
testing a judgmentally selected sample of transactions, we questioned claimed costs as detailed
following table:




                                               2
                                             1                           EMCF         Subgrantee
              Type of Questioned Costs                    Federal                                      Totals
                                                                         Match          Match
       National Sex Offender Public Registry
       (NSOPR) search was conducted after the
       employee started working on the grant               $267,739      $16,029         $ 33,528     $317,296
       Designated       State    criminal   history
       repositories were not used to conduct
       State criminal registry searches                        62,467      56,397         122,731      241,595
       State criminal registry search was not
       conducted for the State in which the
       employee resided                                        17,823             -        34,352        52,175
       Incorrect rate was used for employee
       fringe benefits charged to the grant                      384              -               -         384
       Subgrantee did not account for all
       employee hours worked in calculating the
       cost charged to the grant                                    -       3,569            7,247       10,816
       Supervisor approved the employee’s time
       sheet before the end of the pay period                       -      3,393                -        3,393
       Ineligible individuals labor costs                                  3,882           17,994       21,876
                                            Totals         $348,413      $83,270         $215,852     $647,535

For each program year, grant expenditures were applied to the Federal funds first until they
were exhausted, then the expenditures were normally applied at a two to one ratio against the
subgrantee and EMCF match funding respectively. EMCF did not provide additional Federal
funding for the following program year until the subgrantees met their match funding
requirements for the prior program year.

We compared EMCF’s inception-to-date drawdown amounts with the amounts reported in its
last Federal Financial Report (FFR)2 for the period tested and noted no discrepancies.

Details of the questioned costs, grant awards, non-compliance with grant provisions, and
applicable laws and regulations are presented in the section of this report entitled, Detailed
Findings (see page 12) that follows the results of our agreed-upon procedures, which are
summarized below by category.

National Service Criminal History Checks
    Written authorization from the employee was not obtained prior to conducting State
       criminal registry searches;
    The Corporation’s designated State criminal history repositories were not used to
       conduct the State criminal registry search;
    No State criminal registry search was conducted for the State in which the employee
       resided at the time the employee applied for the position;
    Employees were determined to be ineligible to work on the grant, but were allowed to
       continue working on the grant;
    NSOPR search was conducted after the employee started working on the grant;



1
    A questioned cost is an alleged violation or non-compliance with grant terms and/or provisions of laws and
    regulations governing the expenditures of funds; or a finding that, at the time of testing, adequate documentation
    supporting a cost item was not readily available.
2
    The FFR is a standardized, consolidated report of Federal grant awards and associated Federal share and match
    costs claimed which are required to be reported by grantees to the Corporation on a semi-annual basis.


                                                           3
    NSOPR checks did not include searches based on both the employee’s married and
     maiden names;
    No documentation that the subgrantee considered the results of the National Service
     Criminal History Check before selecting the individual for employment;
    The I-9 Form, Employment Eligibility Verification, used to document the verification of
     the employee’s identity was completed after the employee started working.
    The I-9 Form was not updated after the employee was rehired within three years from
     the date the form was originally completed; and
    The I-9 Form was missing the date of employment or date that the verification was
     completed.

Labor Cost/Payroll
    Supervisor approved the employee’s time sheet before the end of the pay period;
    Date that the supervisor approved, or the employee signed the timesheet, was missing;
    Employees were paid before time sheets were signed by the employee and/or
       supervisor; and
    Subgrantee did not account for all employee hours worked when calculating the cost
       charged to the grant.

Fringe Benefits
     An incorrect rate was used for employee fringe benefits charged to program year 2013
       by a subgrantee.

Reporting
    Subgrantee quarterly financial reports were submitted late to EMCF.




                                             4
                                                                       CliftonLarsonAllen LLP
                                                                       www.cliftonlarsonallen.com




                         INDEPENDENT ACCOUNTANT’S REPORT
                        ON APPLYING AGREED-UPON PROCEDURES

Office of Inspector General
Corporation for National and Community Service

We have performed the procedures, detailed in the "Draft Agreed‐Upon Procedures for Social
Innovation Fund Awards to Grantees (including Subgrantees) dated August 2012," not included
herein. These procedures were agreed to by the Corporation for National and Community
Service (Corporation) Office of Inspector General (OIG) solely to assist you in evaluating certain
information reported by Edna McConnell Clark Foundation (EMCF) in accordance with its
Corporation grant terms and provisions, and applicable laws and regulations, for the period from
August 1, 2010, through September 30, 2012.

Grantees’ Responsibility
EMCF and its subgrantees are responsible for the accuracy and completeness of the reported
information. In addition, they are also responsible for the design and implementation of
programs and controls to prevent and detect fraud, and for informing us about all known or
suspected fraud or illegal acts affecting their entities involving (1) management, (2) employees
who have significant roles in internal control, and (3) others where the fraud or illegal acts could
have a material effect on the CNCS grants. Their responsibilities include informing us of their
knowledge of any allegations of fraud or suspected fraud affecting the entity received in
communications from employees, former employees, grantors, regulators, or others. They are
also responsible for identifying and ensuring that their entities comply with applicable laws,
regulations, contracts, and grant agreements, and for taking timely and appropriate steps to
remedy any fraud, illegal acts, violations of contracts or grant agreements, or abuse that we
may report.

Auditor’s Responsibility
We conducted the agreed-upon procedure engagement in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the
standards for agreed-upon procedures contained in Government Auditing Standards, issued by
the Comptroller General of the United States. The sufficiency of the procedures, described in
the "Draft Agreed‐Upon Procedures for Social Innovation Fund Awards to Grantees (including
Subgrantees) dated August 2012," not included herein, is solely the responsibility of the
Corporation’s OIG. Consequently, we make no representation regarding the sufficiency of the
procedures either for the purpose for which this report has been requested, or for any other
purpose.

The results of our procedures are described in the Detailed Findings section of this report.

The agreed‐upon procedures listed in the "Draft Agreed‐Upon Procedures for Social Innovation
Fund Awards to Grantees (including Subgrantees) dated August 2012," not included herein do
not constitute an examination or review, the objective of which would be the expression of an
opinion on EMCF’s reported grant information. Accordingly, we do not express such an opinion
or limited assurance on the amount of Federal assistance expended by EMCF. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.


                                                 5
This report is intended solely for the information and use of the OIG, the Corporation, and
EMCF, and should not be used by anyone other than these specified parties.



a
Calverton, Maryland
March 26, 2013




                                            6
                                                                                                       Schedule A
                           Corporation for National and Community Service
                                   Edna McConnell Clark Foundation
                        Consolidated Schedule of Claimed and Questioned Costs
                         For Period August 1, 2010 through September 30, 2012
                                         Award 10SIHNY003


                                                                    Questioned Costs
                                              Claimed                  EMCF      Subgrantee
                              Approved        Federal        Federal   Match       Match
                                      3
         Program               Budget          Costs        Costs (a) Costs(b)    Costs (c)            Schedule

            EMCF              $5,000,000         $72,270    $         -   $        -      $        -      B
     SEED Foundation
           (SEED)              1,750,000       1,000,000        290,251       34,455          70,489      C
     Building Educated
      Leaders for Life
           (BELL)              2,500,000       1,488,440         40,339       41,540          93,017      D
         Center for
       Employment
    Opportunities (CEO)        3,000,000       1,223,332         17,823        7,275          52,346      E
     Other Subgrantee
       Programs Not
    Selected for Testing      13,750,000       5,776,668

                   Totals    $26,000,000     $9,560,710     $348,413      $83,270        $215,852
                  Total Questioned Costs (a + b + c)                      $647,535




3
    The total for the Approved Budget does not reflect the total Federal amount awarded to EMCF because $4 million
    of the grant has not yet been awarded to subgrantees.




                                                            7
                                                                                    Schedule B
                           Schedule of Award and Claimed Costs
                   For Period August 1, 2010 through September 30, 2012
                     Edna McConnell Clark Foundation – 10SIHNY003

                                                                                     Reference
Authorized Budget (Corporation Funds)                               $30,000,000       Note 1

Claimed Federal Costs                                                   9,560,710      Note 2

Authorized Match Budget                                              80,000,000        Note 3

Claimed Match Costs                                                  17,951,648        Note 4

Questioned Federal Costs:                                       -
              Total Questioned Federal Costs                        $           -

Questioned EMCF Match Costs:                                    -
           Total Questioned EMCF Match Costs                        $           -

Notes

1. The authorized budget amount represents the funding to EMCF according to the Notice of
   Grant Award.
2. Claimed costs represent EMCF’s reported Federal expenditures for the period August 1,
   2010, through September 30, 2012. The Federal cost that EMCF incurred directly was
   $72,270.
3. The authorized match budget represents the funding to EMCF in accordance with the Notice
   of Grant Award.
4. Claimed match costs represent EMCF’s reported match expenditures for the period August
   1, 2010, through September 30, 2012. The match cost represents the amount incurred by
   the subgrantees using EMCF funding provided as part of the award and its privately
   generated funds from non-Federal sources.




                                               8
                                                                                        Schedule C
                         Schedule of Award and Claimed Costs:
                            SEED Foundation – 10SIHNY003
                  AUP Period August 1, 2010 through September 30, 2012

                                                                                         Reference
Authorized Budget (Federal Funds)                                          $1,750,000     Note 1
Authorized Match Budget (EMCF Funds)                                        1,750,000     Note 2
Authorized Match Budget (SEED Funds)                                        3,500,000     Note 3

Questioned Federal Costs:
 NSOPR search was conducted after employee started
 working on the grant                                           $267,739                  Note 4
 Designated State criminal history repositories were not used
 to conduct State criminal registry searches                      22,512                  Note 5
              Total Questioned Federal Costs                                $290,251

Questioned EMCF Match Costs:
 NSOPR search was conducted after employee started
 working on the grant                                            $16,029                  Note 4
 Designated State criminal history repositories were not used
 to conduct State criminal registry searches                      14,857                  Note 5
 SEED did not account for all employee hours worked in
 calculating the cost charged to the grant                         3,569                  Note 6
             Total Questioned EMCF Match Costs                               $34,455

Questioned SEED Match Costs:
 NSOPR search was conducted after employee started
 working on the grant                                            $33,528                  Note 4
 Designated State criminal history repositories were not used
 to conduct State criminal registry searches                      29,714                  Note 5
 SEED did not account for all employee hours worked in
 calculating the cost charged to the grant                         7,247                  Note 6
             Total Questioned SEED Match Costs                               $70,489

Notes
1. The authorized budget amount represents the Federal funding to SEED in accordance with
   the subgrant agreement.
2. The authorized match budget represents EMCF funding that was provided to SEED in
   accordance with the subgrant agreement.
3. The authorized match budget represents the funding that SEED will provide in accordance
   with the subgrant agreement.
4. Federal costs of $267,739, EMCF match costs of $16,029 and SEED match costs of
   $33,528 were questioned due to the NSOPR search being conducted after the employee
   started working on the grant (See Finding 1).
5. Federal costs of $22,512, EMCF match costs of $14,857 and SEED match costs of $29,714
   were questioned due to Corporation designated State criminal history repositories not being
   used to conduct the State criminal registry search (See Finding 2).
6. EMCF match costs of $3,569 and SEED match costs of $7,247 were questioned due to
   SEED not taking into account all employee hours worked in calculating the cost charged to
   the grant (See Finding 4).




                                                  9
                                                                                    Schedule D
                         Schedule of Award and Claimed Costs:
                    Building Educated Leaders for Life – 10SIHNY003
                  AUP Period August 1, 2010 through September 30, 2012

                                                                                  Reference
   Authorized Budget (Federal Funds)                                 $2,500,000    Note 1
   Authorized Match Budget (EMCF Funds)                               2,500,000    Note 2
   Authorized Match Budget (BELL Funds)                               5,000,000    Note 3

   Questioned Federal Costs:
    Designated State criminal history repositories were
    not used to conduct State criminal registry searches   $39,955                 Note 4
    Incorrect rate was used for fringe benefits charged
    to the grant                                              384                  Note 5
              Total Questioned Federal Costs                           $40,339

   Questioned EMCF Match Costs:
    Designated State criminal history repositories were
    not used to conduct State criminal registry search     $41,540                 Note 4
           Total Questioned EMCF Match Costs                           $41,540

   Questioned BELL Match Costs:
    Designated State criminal history repositories were
    not used to conduct State criminal registry search     $93,017                 Note 4
           Total Questioned BELL Match Costs                           $93,017

Notes

1. The authorized budget amount represents the Federal funding to BELL in accordance with
   the subgrant agreement.
2. The authorized match budget represents EMCF funding that was provided to BELL in
   accordance with the subgrant agreement.
3. The authorized match budget represents the funding that BELL will provide in accordance
   with the subgrant agreement.
4. Federal costs of $39,955, EMCF match costs of $41,540 and BELL match costs of $93,017
   were questioned due to Corporation designated State criminal history repositories not being
   used to conduct the State criminal registry searches (See Finding 2).
5. Federal costs of $384 were questioned due to the use of an incorrect rate for employee
   fringe benefits charged to the grant (See Finding 5). The rate used was 9.75 percent; the
   correct rate is 9.66 percent.




                                                 10
                                                                                   Schedule E
                         Schedule of Award and Claimed Costs:
                   Center for Employment Opportunities – 10SIHNY003
                  AUP Period August 1, 2010 through September 30, 2012

                                                                                   Reference
Authorized Budget (Federal Funds)                                     $3,000,000    Note 1
Authorized Match Budget (EMCF Funds)                                   3,000,000    Note 2
Authorized Match Budget (CEO Funds)                                    9,000,000    Note 3

Questioned Federal Costs:
 State criminal registry search was not conducted for the
 State in which the employee resided                        $17,823                  Note 4
               Total Questioned Federal Costs                           $17,823

Questioned EMCF Match Costs:
 Supervisor approved the employee’s time sheet before the
 end of the pay period                                        3,393                  Note 5
 Ineligible individuals labor costs                           3,882                  Note 6
              Total Questioned EMCF Match Costs                          $7,275

Questioned CEO Match Costs:
 State criminal registry search was not conducted for the
 State in which the employee resided                         34,352                  Note 4
 Ineligible individuals labor costs                         $17,994                  Note 6
              Total Questioned CEO Match Costs                          $52,346

Notes

1. The authorized budget amount represents the Federal funding to CEO in accordance with
   the subgrant agreement.
2. The authorized match budget represents EMCF funding that was provided to CEO in
   accordance with the subgrant agreement.
3. The authorized match budget amount represents the funding that CEO will provide in
   accordance with the subgrant agreement.
4. Federal costs of $17,823 and CEO match costs of $34,352 were questioned due to the
   State criminal registry search not being conducted for the State in which the employee
   resided when the employee applied for the position (See Finding 2).
5. The questioned $3,393 in EMCF match costs was due to the supervisor approving the
   employee’s time sheet before the end of the pay period (See Finding 4).
6. The questioned $3,882 in EMCF match costs and $17,994 in CEO match costs was caused
   by two ineligible staff employees charging the grant for labor costs (See Finding 2).




                                                 11
                                    DETAILED FINDINGS


Finding 1 – National Sex Offender Public Registry Searches

We reviewed various samples of subgrantee employee files to verify that the National Sex
Offender Public Registry (NSOPR) search was conducted and documented before the
employees started working on the grant, resulting in the following exceptions:

a. National Sex Offender Public Registry Search Was Conducted After The Employee
   Started Working On The Grant

   For 14 of the 16 employee files tested, SEED conducted the NSOPR search after the
   employee started working on the grant. SEED believed that its criminal background check
   process was sufficient without verifying that it met the Federal regulations. By not completing
   the NSOPR check before the employee started working on the grant, SEED placed itself,
   EMCF, the Corporation and the population that it serves at risk. SEED indicated that the
   vendor conducting the registry searches was not aware that it had to use the National Sex
   Offender Public Website to perform the searches, but performed searches on all but three of
   the employees using an alternative source. EMCF disallowed the costs incurred for those
   three employees until the date that the NSOPR search was conducted.

   Although the sex offender searches conducted by the vendor may have mitigated some of
   the risk, those searches were not from the source required by 45 Code of Federal
   Regulations (CFR) §2540.202. We are questioning costs from the date the employee started
   working on the grant until the NSOPR search was completed. The total costs for two
   employees were already questioned under finding 2.c. EMCF disallowed a portion of these
   costs in February 2013, which reduced our questioned costs to $267,739 in Federal,
   $16,029 in EMCF match, and $33,528 in SEED match costs.

b. National Sex Offender Public Registry Searches Were Not Conducted For Both The
   Employee’s Maiden And Former Married Names

   For 10 of the 55 employee files tested, the subgrantees’ (BELL and SEED) NSOPR
   searches did not include both the employees’ maiden or former married names. The
   subgrantees only conducted the searches based on the name provided to them by the
   employees and confirmed against government identification. Although the additional
   searches are not specifically required, the Corporation’s Frequently Asked Questions (FAQ)
   for this subject on its public website suggests that such searches are prudent as a best
   practice from a risk management perspective. However, it appears the suggestion has not
   been heeded because none of the subgrantees have implemented the practice. By not
   conducting a complete NSOPR search to include maiden and married names, subgrantees
   potentially run the risk of failing to detect a registered sex offender. The subgrantees
   subsequently conducted and provided the additional NSOPR searches and found no issues
   that would disqualify the employees from working on the grant. We did not question the cost
   because the NSOPR searches were conducted with negative results using the aliases.




                                               12
Criteria

45 Code of Federal Regulations (C.F.R.) (October 2010 and 2011) §2540.202 states:

       Unless the Corporation approves an alternative screening protocol, in determining
       an individual's suitability to serve in a covered position, you are responsible for
       conducting and documenting a National Service Criminal History Check, which
       consists of the following two search components: a) State criminal registry search.
       A search (by name or fingerprint) of the State criminal registry for the State in which
       your program operates and the State in which the individual resides at the time of
       application; and b) National Sex Offender Public Registry. A name-based search of
       the Department of Justice (DOJ) National Sex Offender Public Registry (NSOPR).

45 C.F.R. 2540.201(a) (October 2010 and 2011) states:

       An individual is ineligible to serve in a covered position if the individual is
       registered, or required to be registered, on a State sex offender registry or the
       National Sex Offender Registry.

The Corporation's National Service Criminal History Check Frequently Asked Questions, dated
May 10, 2012, Question 4.5 states:

       Do I need to check all names that the person has ever gone by, for example, a
       maiden name? No, you are only required to check an individual’s current legal
       name, as shown on their government identification. Of course, as a risk
       management practice, it is prudent to also check any other names that the
       individual has used.

Recommendations:

We recommend that the Corporation:

1a.   Resolve and recover the questioned Federal costs of $267,739, EMCF match costs of
      $16,029 and SEED match costs of $33,528.

1b.   Ensure that EMCF strengthens the monitoring of its subgrantees to make certain that
      subgrantees are performing and documenting the NSOPR search prior to the employee
      starting to work on the grant.

1c.   Revise the Frequently Asked Questions for National Service Criminal History Checks to
      require searches to be conducted for employees with maiden, married or former married
      names.

EMCF Response:

EMCF concurs with finding 1a, but not with finding 1b because the search for maiden and
former married names is not currently a requirement of the National Sex Offender Criminal
History check.




                                                13
Auditor’s Comments:

The Corporation should follow-up with EMCF during audit resolution to ensure that the
corrective action implemented by EMCF is effective and resolve the questioned costs.
Recommendation 1c was specifically made to the Corporation and will be addressed by the
Corporation directly.


Finding 2 – State Criminal Registry Searches Were Improperly Conducted

We reviewed samples of employee files that were charged to the grant during the AUP period to
verify that the State criminal registry search was conducted and documented in accordance with
Federal regulations, with the following results:

a. State Criminal Registry Search Was Not Authorized By The Employee

   For 16 of the 37 employee files tested, BELL and SEED did not obtain signed and dated
   authorizations from the employees to perform the State criminal registry searches, or the
   completed authorization forms were provided after the employees began working on the
   grant. BELL and SEED informed us that they either forgot to issue the request for
   authorization to the employee to conduct a State criminal history search, or did not ensure
   that they received the signed and dated authorization from the employee prior to conducting
   the State criminal registry search. The subgrantee placed itself, EMCF and the Corporation
   at risk of potential legal action by performing a State criminal registry search prior to
   receiving the employee’s authorization.

b. State Criminal Registry Search Was Not Conducted On The State In Which The
   Employee Resided At The Time Of Applying For Employment

   For 1 of the 18 employee files tested, CEO did not conduct a State criminal registry search
   on the State in which the employee resided at the time the employee applied for the
   position. CEO staff assumed that the person applying for the position resided in the same
   State where the position was located. By not ensuring that proper State criminal registry
   searches were performed in accordance with Federal regulations, CEO placed itself, EMCF,
   the Corporation and the population it serves at risk. We are questioning $17,823 in Federal
   costs and $34,352 in CEO match costs.

c. State Criminal Registry Searches Were Not Conducted Using The Corporation’s
   Designated State Criminal History Repositories

   For 6 of the 37 employee files tested, BELL and SEED did not use the designated State
   criminal history repositories in conducting their State criminal registry searches. The
   subgrantees believed that their criminal background check process was sufficient without
   verifying that it met the requirements of the Corporation. By not ensuring that proper State
   criminal registry searches are performed, the subgrantees place themselves, EMCF, the
   Corporation and the population it serves at risk. We are questioning $62,467 in Federal
   costs, $56,397 in EMCF match, $93,017 in BELL match and $29,714 in SEED match costs.




                                             14
d. There Was No Documentation That State Criminal Registry Search Results Were
   Considered In Determining Whether An Employee Was Eligible To Work On The Grant

   For 1 of the 16 employee files tested, there was no documentation that SEED considered
   the results of the State criminal registry search in determining whether to allow the employee
   to work on the grant. SEED management stated that it considered the results of the search,
   but was not aware of the Federal requirement to document its consideration of those results.
   As a result, SEED could have inadvertently selected an employee to work on the grant that
   was not eligible or may not have been appropriate for the grant program.

e. Ineligible Employees Were Allowed To Work On The Grant

   For 2 of the 18 employee files tested, CEO documented that the employees were ineligible
   to work on the SIF grant because both had criminal histories. Specifically, the criminal
   history search for one employee disclosed a second degree murder charge. The second
   employee voluntarily disclosed on his application that he had previously been charged with
   “Unlawful Surveillance,” a sex-related crime. However, CEO management allowed both
   employees to continue working on the grant. CEO staff did not communicate to its Director
   of Compliance that the employees were ineligible to perform any further work on the grant.
   CEO removed the employees from working on the grant on January 11, 2013, just prior to
   our site visit. CEO’s failure to promptly remove both employees from working on the SIF
   grant may have placed EMCF, CEO and the Corporation at risk. As a result, we are
   questioning $3,882 in EMCF match and $17,994 in CEO match costs because of these
   ineligible employees. On February 12, 2013, EMCF disallowed $3,882 in EMCF match cost
   and $18,057 in CEO match costs. The $63 difference was due to a miscalculation of indirect
   cost for the cost incurred in program year 2013.

Criteria

45 C.F.R. 2540.204(b) (October 2010 and 2011) states:

       Obtain prior, written authorization for the State criminal registry check and the
       appropriate sharing of the results of that check within the program from the
       individual.
45 C.F.R. 2540.202 (October 2010) states:
       Unless the Corporation approves an alternative screening protocol, in determining
       an individual's suitability to serve in a covered position, you are responsible for
       conducting and documenting a National Service Criminal History Check, which
       consists of the following two search components: (a) State criminal registry search.
       A search (by name or fingerprint) of the State criminal registry for the State in which
       your program operates and the State in which the individual resides at the time of
       application; and (b) National Sex Offender Public Registry. A name-based search
       of the Department of Justice (DOJ) National Sex Offender Public Registry
       (NSOPR)." 45 C.F.R. 2540.205(b) states, "Maintain the results of the National
       Service Criminal History check (unless precluded by State law) and document in
       writing that you considered the results in selecting the individual.
The Corporation's National Service Criminal History Check Frequently Asked Questions, dated
May 10, 2012, Question 5.1 states:



                                                15
       How do I find out what statewide criminal record repository/repositories to check?
       CNCS has designated specific registries in each State and most territories. While
       many States have more than one source of criminal history information, using any
       source other than those designated by CNCS requires approval of an alternative
       search procedure (ASP) from the Office of Grants Management Director.

       Please visit [http://www.nationalserviceresources.org/files/table-of-designated-
       state-repositories-and-alternatives-11-29-11.pdf] for a list of CNCS-designated
       State repositories and the alternative State sources we have approved.

The Corporation's Frequently Asked Questions on National Service Criminal History Check,
dated July 16, 2010, Question 3.1 states:

       How do I find out what statewide criminal records to check? All states, including the
       District of Columbia, Guam, Puerto Rico, and the Virgin Islands have statewide
       criminal registries. The Corporation has designated specific registries in each state
       that can be found on pages 108112 in the Staff Screening Tool Kit (along with
       contact        addresses          and       phone        numbers);        go       to
       www.nationalservice.gov/screeningtoolkit. While many states have more than one
       registry, the use of any source other than those designated by the Corporation
       requires approval of an alternate search protocol (ASP) from the Director, Office of
       Grants Management. The Corporation is in the process of reviewing those other
       registries to determine if they provide equivalent information. See attached Table 1,
       Designated Statewide Criminal History Repositories for a consolidated list of the
       Corporation designated state registries and our determinations to date of
       alternative state registries which provide equivalent data.

45 C.F.R. 2540.201 (October 2011) states:

       An individual is ineligible to serve in a covered position if the individual: (a) Is
       registered, or required to be registered, on a State sex offender registry or the
       National Sex Offender Registry; or (b) Has been convicted of murder, as defined in
       section 1111 of title 18, United States Code.

Recommendations:

We recommend that the Corporation:

2a.   Resolve the questioned Federal costs of $80,290, EMCF match costs of $56,397, BELL
      match of $93,017, CEO match of $34,352 and SEED match costs of $29,714.

2b.   Ensure that EMCF identifies the cost incurred against the grant by the ineligible
      employees at CEO from October 1, 2012, through January 11, 2013, and resolve those
      questioned costs.

2c.   Ensure that EMCF strengthens its monitoring to make certain that subgrantees are
      performing State criminal registry searches in accordance with Federal regulations and
      grant provisions so that:
         Written authorization is obtained from the employee prior to conducting the State
            criminal registry search;



                                               16
          State criminal registry searches are conducted for the State in which the employee
           applicant resides;
          Subgrantees and their vendors are utilizing the Corporation’s designated statewide
           criminal history repositories in conducting their State criminal registry searches;
          Subgrantees document in writing that they considered the results of the State
           criminal registry searches in determining whether employees can work on the
           Corporation’s grant(s); and
          Subgrantees make a determination on the employees’ eligibility to work on a grant
           prior to beginning work, and remove an ineligible employee on the same day that
           determination is made.

EMCF Response:

EMCF concurs with all the findings and addresses its corrective actions in its written response in
Appendix A.

Auditor’s Comments:

The Corporation should follow-up with EMCF during audit resolution to ensure that the
corrective action implemented by EMCF is effective and resolve the questioned costs.


Finding 3 – Employment Eligibility Was Not Verified

We selected employee file samples of 20 percent (21 for BELL, 18 for CEO, and 16 for SEED)
of the employees who were charged to the grant during the AUP period to verify that
subgrantees documented their verification of the employees’ identity in accordance with Federal
regulations. The subgrantees’ process for documenting the verification of the employee’s
identity was to complete the I-9 Form, Employment Eligibility Verification. We noted the
following exceptions:

a. I-9 Form Was Completed After Employee Started Working On The Grant

   For 3 of the 21 employee files tested, the I-9 Form used to document the verification of the
   employee’s identity was performed after the employee had begun employment. Bell staff
   overlooked the requirement to document the verification of the employee’s identity on the I-9
   Form within three business days of the employment date. By not verifying the employee’s
   identity prior to working on the grant, BELL could delay the National Service Criminal History
   Check by not having the verified information in hand to initiate the NSOPR and State
   criminal registry searches. Such a delay would place BELL, EMCF, the Corporation and the
   population it serves at risk.

b. I-9 Form Was Not Updated After Employee Was Rehired Within Three Years From The
   Date The Form Was Originally Completed

   For 3 of the 21 employee files tested, the I-9 Form was not updated to reflect the rehiring of
   the individual within three years from the date the form was originally completed. These
   were term employees whose terms had ended, but were rehired by BELL to continue
   working on the grant. BELL staff had overlooked the requirement to update the I-9 Form
   when they rehire an employee. The employee may have had a name change or a change in



                                               17
   employment authorization status. The information on the I-9 Form is to be used by
   employers as a record of their basis for determining eligibility of an employee to work in the
   United States.

c. I-9 Form Was Missing Date Of Employment Or The Date Verification Was Conducted

   For 2 of the 18 employee files tested, there was no date on the I-9 Form used to document
   the verification of the employee’s identity to indicate when employment began. In one of the
   two cases, there was also no date as to when the verification was conducted by CEO. CEO
   staff indicated the date omissions were due to a clerical error. The information on the I-9
   Form is to be used by employers as a record of their basis for determining the eligibility of an
   employee to work in the United States. An individual may not begin employment unless this
   form is completed. Employers may be subject to civil or criminal penalties if they do not
   comply with the Immigration Reform and Control Act of 1986.

Criteria

45 C.F.R. 2540.205 (October 2011) states:

       You must: (a) Document in writing that you verified the identity of the individual in a
       covered position by examining the individual’s government-issued photo
       identification card, and that you conducted the required checks for the covered
       position; and (b) Maintain the results of the National Service Criminal History check
       (unless precluded by State law) and document in writing that you considered the
       results in selecting the individual.

The I-9 Form instructions require the following:
    Employers must complete Section 2 by examining evidence of identity and
       employment authorization within three business days of the date employment
       begins.
    The I-9 Form must be updated if an employee is rehired within 3 years of the date
       that this form was originally completed and the employee is still authorized to be
       employed on the same basis as previously indicated on the form.
    Section 2 must be completed at the time employment begins. Employers must
       record: 1) document title; 2) issuing authority; 3) document number, 4) expiration
       date, if any; and 5) the date employment begins. Employers must sign and date the
       certification.
       Submission of the information required in this form is voluntary. However, an
       individual may not begin employment unless this form is completed as employers
       are subject to civil or criminal penalties if they do not comply with the Immigration
       Reform and Control Act of 1986, the legislation which contains the I-9 Form
       requirement.

Recommendation:

3. We recommend that the Corporation ensure that EMCF strengthens the monitoring of its
   subgrantees to make certain the verification of the employee’s identity is properly
   documented in accordance with Federal regulations.




                                                18
EMCF Response:

EMCF concurs with all the findings and addresses its corrective actions in its written response in
Appendix A.

Auditor’s Comments:

The Corporation should follow-up with EMCF during audit resolution to ensure that the
corrective action implemented by EMCF is effective.


Finding 4 – Subgrantee Employee Time Sheets Had Deficiencies

We selected two pay periods for each of the three subgrantees and reviewed employee time
sheets to verify hours and costs charged to the SIF grant. We noted the following exceptions:

a. Time Sheet Was Approved Before End Of Pay Period

   For 1 of the 78 time sheets tested for CEO, the supervisor approved the time sheet before
   the end of the pay period. The time sheet covered the period April 7 – 20, 2012, but was
   signed by the supervisor in advance on April 6, 2012. According to CEO, its staff failed to
   notice that the time sheet was signed in advance. As a result, we are questioning $3,393 in
   EMCF match costs.

b. Missing Date The Supervisor or Employee Signed the Time Sheet

   For 3 of the 78 time sheets tested for CEO, the date that the supervisor approved or the
   employee signed the time sheet was missing. According to CEO, this was an oversight by its
   staff in reviewing employee time sheets. CEO was not in compliance with its personnel
   policies and procedures. We cannot confirm that all of the hours were properly approved.

c. Employees Were Paid Before Time Sheets Were Signed By The Employee and/or
   Supervisor

   For 15 of the 22 time sheets tested for SEED, the employee and/or supervisor signed and
   dated employees’ time sheets after the employees were paid. According to SEED, this was
   a clerical oversight by its staff. SEED was not in compliance with its policies and procedures.

d. Subgrantee Did Not Account For All Employee Hours Worked In Calculating Costs
   Charged To The Grant

   For 2 of the 22 time sheets tested, SEED did not account for all of the hours the employee
   worked in calculating the payroll costs charged to the grant. This allocation of labor costs is
   performed because some employees do not work exclusively on Corporation funded
   projects.

   In the first case, SEED did not take into account the full 80 hours of the pay period for the
   employee, which was short by 6.75 hours. The salary cost was originally applied against
   73.25 hours for an hourly rate of $21.47. The hourly rate based on the full 80 hours worked
   was $19.66, or a difference of $1.81 per hour. The Federal share of the grant was charged



                                               19
   for 9.25 hours, which equates to a salary difference of $16.74. After applying the fringe
   benefits rate of 16 percent, the total questioned Federal payroll cost is $19.42.

   In the second case, the payroll cost was applied to 9.5 hours the employee worked on the
   grant, rather than the full 81.5 hours the employee actually worked in that pay period,
   resulting in a salary difference of $9,344. After applying the fringe benefit rate of 16 percent,
   the total questioned payroll cost is $10,816, of which $3,569 is EMCF match (33 percent)
   and $7,247 is SEED match costs (67 percent). In reviewing employee timesheets, SEED
   staff failed to ensure that the full amount of work hours was accounted for in calculating the
   payroll costs charged to the grant. By not accounting for all of the hours worked by the
   employee in calculating the payroll cost, SEED has overcharged the grant. The unallowable
   cost of $19 in Federal share has already been questioned under finding 1a. However, we
   are questioning $3,569 in EMCF match and $7,247 in SEED match costs.

Criteria

The CEO Personnel Manual dated June 2011 states:

       Employee time sheets must show all hours worked on CEO business, regardless of
       where they are worked (for example, office, field, business conference). They must
       show the actual time you start work and your departure from work. It is vital that
       actual hours worked and leave time taken are recorded accurately.

The CEO Fiscal Policies and Procedures Manual (revised September 13, 2010) states:

       All regular CEO employees complete time sheets on a biweekly basis. Time sheets
       are reviewed and approved by the immediate supervisor. Time sheets are
       maintained electronically in the Time Sheet Module. Employees have access to
       their own time sheets and may enter time worked and leave taken on a daily to
       biweekly basis. After completion, the employee releases the time sheet for
       supervisory approval. After reviewing and approving employee time sheets, the
       supervisor releases the timesheets for payroll processing.

       At the end of each pay period, the Payroll Manager runs an exception report for
       missing timesheets, resolves discrepancies with the supervisor, reviews information
       for accuracy and prepares export data for ADP.

The SEED Foundation financial policies and procedures for Federal grants, Section 4.1, Labor
Allocation (page 4) states:

       Employees are required to submit timesheets on a semi-monthly basis which
       account for all time worked and paid time off claimed during the pay period. The
       employee must designate by day the time (in 15 minute increments) worked for
       each SIF and non-SIF project or activity and any time claimed as paid time off. The
       time sheets become the basis for an excel spreadsheet which allocates the labor
       costs to the relevant grant or non-grant related program or activity and paid time off
       accounts. The excel spreadsheet, prepared by the staff accountant and reviewed
       by the Chief Financial Officer, is the source document for a journal entry to record
       the cost allocations into the Great Plains accounting software. For exempt
       employees an effective labor rate [for purposes of cost allocation] is computed. The
       effective rate is calculated by dividing the employee’s salary for the semi-monthly


                                                20
       period by the total number of hours worked and claimed as paid time off. The
       effective labor rate is multiplied by the total hours worked on each direct and
       indirect activity or claimed as paid time off during a given pay period.

Recommendations:

We recommend that the Corporation:

4a.   Resolve the questioned costs of $6,962 ($3,393 + $3,569) in EMCF match and $7,247 in
      SEED match.

4b.   Ensure that EMCF strengthens its monitoring of subgrantees to make certain that internal
      controls over the payroll reporting and reconciliation process are properly implemented so
      that:
         Time sheets are properly signed, reviewed and dated by employees and their
            supervisors consistent with the subgrantees’ policies and procedures; and
         Payroll costs charged to the Corporation grant are calculated based on the full
            amount of the hours worked by the employee.

EMCF Response:

EMCF concurs with all the findings and addresses its corrective actions in its written response in
Appendix A.

Auditor’s Comments:

The Corporation should follow-up with EMCF during audit resolution to ensure that the
corrective action implemented by EMCF is effective and resolve the questioned costs.


Finding 5 – Incorrect Fringe Benefit Rate Was Used To Calculate Employee Fringe
         Benefits Charged To The Grant

We reviewed BELL’s program year (PY) 2012 and 2013 employee fringe benefit rates to ensure
that the rates were determined in accordance with the benefit rate methodology approved by
EMCF. We verified how the fringe benefit rates were derived and noted that BELL’s approved
PY 2013 fringe benefit rate was incorrectly calculated. The payroll tax rate, which is part of the
benefit rate, was calculated based on the payroll tax cost incurred in the prior fiscal year divided
by total payroll salary cost. The benefit rate for PY 2012 was properly calculated and
documented.

BELL staff mistakenly used an unaudited number (total employee benefits) in the calculation of
its PY 2013 fringe benefit rate instead of the payroll tax amount from BELL’s fiscal year 2011
audited financial statements. As a result, the payroll tax rate used was 9.75 percent, but should
have been 9.66 percent. This error resulted in overcharging the grant for the payroll tax portion
of the benefits by $384 in Federal costs for the months of July through September 2012, which
we are questioning.




                                                21
Criteria

BELL’s Indirect Cost Rate and Methodology/Benefit Rate and Methodology indicates that BELL
calculates a tax and benefit rate which applies to all full time employees, and a tax rate which
applies to all part time and seasonal employees. The payroll tax rate is calculated by dividing
the fiscal year’s total payroll tax for 2011 by the total payroll salaries from the same year. The
fringe benefit rate portion was calculated by dividing the fiscal year’s total benefits for 2011 by
the total full time salaries from the same year. For example, a hypothetical calculation is
displayed below.

                                       Payroll Tax               Benefits
             Total Payroll             $15,000,000       A
             Fulltime Staff Payroll                            $10,000,000       D

             Payroll Tax                $1,300,000       B
             Benefits                                              $750,000      E

             Payroll Tax Rate                8.67% C=B/A
             Benefits Rate                                            7.50%    F=E/D
             Combined Rate                  16.17%     C+F

Recommendations:

We recommend that the Corporation:

5a.   Resolve the $384 in questioned Federal costs.

5b.   Ensure that EMCF strengthens its review, approval and monitoring of subgrantee benefit
      rates to make certain that the rates are properly supported and calculated in accordance
      with approved procedures.

5c.   Ensure that EMCF verifies that the correct fringe benefit rate is applied for the remainder
      of PY 2013.

EMCF Response:

EMCF concurs with the finding and addresses its corrective action in its written response in
Appendix A.

Auditor’s Comments:

The Corporation should follow-up with EMCF during audit resolution to ensure that the
corrective action implemented by EMCF is effective and resolve the questioned costs.


Finding 6 – Quarterly Financial Reports Were Submitted Late To EMCF

We determined that five quarterly financial reports were submitted late by the subgrantees to
EMCF, as follows:
   BELL submitted one report to EMCF eight days late.



                                                22
      CEO submitted one report to EMCF six days late and two others eight days late.
      SEED submitted one report to EMCF sixteen days late and another seven days late.

EMCF has not established a policy prescribing the action it will take when a subgrantee is late in
submitting its quarterly financial reports. The subgrantees are not in compliance with their
subgrant agreement with EMCF. A delay in reporting could result in an understatement of
expenses.

Criteria

The subgrant agreement between EMCF and the subgrantees states:

       For the duration of the grant term, the subgrantee will report the following through
       EMCF’s Grantee Reporting Portal: …2) Quarterly overall financial results for
       periods ending March 31, June 30, September 30, and December 31. These
       reports are due 30 days after the respective reporting period.

Recommendation:

6. We recommend that the Corporation ensure that EMCF strengthens internal controls over
   the financial reporting process by establishing and implementing a policy as to the follow-up
   action it will take when a subgrantee submits its quarterly reports late.

EMCF Response:

EMCF concurs with the finding and addresses its corrective action in its written response in
Appendix A.

Auditor’s Comments:

The Corporation should follow-up with EMCF during audit resolution to ensure that the
corrective action implemented by EMCF is effective.

                                        BACKGROUND

EMCF was formed in 1969 in New York City by Edna McConnell Clark and her husband, Van
Alan Clark, with the aim of maintaining the Clark family philanthropy. Initially, the Foundation
made grants for the poor, children, the elderly, and the developing world. In 1999, the
Foundation changed strategy and began focusing its resources on economically disadvantaged
young people and the organizations that serve them. Through present, the Foundation has
focused exclusively on investments in youth-serving organizations and helping the most
vulnerable young people make a successful transition to independent adulthood. Since
inception, the Foundation has awarded more than $678 million in grants.

EMCF currently has only one SIF grant covering an award period of August 1, 2010, through
July 31, 2015. The grant was amended four times during the period we reviewed, August 1,
2010, through September 30, 2012. The total amount awarded under this grant is $30 million.
The purpose of the grant is to assist EMCF in expanding the pool of organizations with
established programs that can help ever-increasing numbers of low-income young people--
those at greatest risk of failing or dropping out of school, of not finding work, of becoming



                                               23
involved in the foster care or juvenile justice system--make the transition to productive
adulthood.

EMCF provided grants to nine subgrantees during the period covered by this report. The
subgrantees use the funds to support their operations and maintain supporting documentation
for the claimed costs. Subgrantees are required to provide monthly and quarterly financial
reports to EMCF through a web portal provided by EMCF. EMCF prepares the aggregate FFR
for the grant by accumulating the expenses reported by the subgrantees through the web portal
and submits its FFR through the Corporation’s online eGrants system.

EMCF also monitors its subgrantees by reviewing the National Service Criminal History Check
performed on grant funded employees and reimbursement requests, performing site visits and
desk reviews, and through other direct means of communication.

EMCF only charged cost against the grant to evaluate the programs of the subgrantees. No
EMCF employees were charged to the grant. During the scope of our review, BELL had 104
employees, CEO had 88 and SEED had 15 that were charged to the grant.

                           AGREED-UPON PROCEDURES SCOPE

We applied the agreed-upon procedures to the period August 1, 2010, through September 30,
2012. The procedures covered the allowability, allocability, and reasonableness of the financial
transactions reported for SIF grant number 10SIHNY003 during that period.

The auditors also performed tests to determine EMCF’s and its selected subgrantees’
compliance with certain grant terms and provisions. The procedures were based on the OIG’s
"Draft Agreed-Upon Procedures for Social Innovation Fund Awards to Grantees (including
Subgrantees) dated August 2012.” We focused on EMCF and three of its subgrantees: BELL,
CEO and SEED. We tested EMCF transactions totaling $72,270. We also tested subgrantee
transactions totaling $315,378 for BELL, $106,179 for CEO, and $153,022 for SEED.

                                     EXIT CONFERENCE

We provided a summary of the findings to be included in the draft report and discussed its
contents with officials of the Corporation, EMCF, and applicable subgrantees at an exit
conference on March 26, 2013. Responsive comments to the draft report from EMCF and its
subgrantees are included in Appendix A. The Corporation’s response is included in Appendix B;
the Corporation states it will work with EMCF representatives to ensure its corrective action
adequately addresses all findings and recommendations. However the Corporation does not
respond to findings and recommendations that are directed to the Corporation.




                                              24
                      APPENDIX A
_______________________________________________________________
           EDNA MCCONNELL CLARK FOUNDATION
                RESPONSE TO DRAFT REPORT




                              25
                                                                               Edlla MCConnell
                                                                                    Clark·ouNDATloN
                                                                                    4 tS Mad iso n Avenlle, lotb Floor
                                                                                    New York, N ew York 10017
                                                                                    P 21:2 55! 9100
                                                                                    F 211. 4 1 1 9325
                                                                                    www,e mcf o rg




May 20, 2013


Stuart Axenfeld
Assistant lnspector General for Audit
Corporation for National Community Service
Office of Inspector General
120 1 New York Avenue
Suite 830
Washington, DC 20525

RE: EMCF Response to OIG Draft Audit Report received on April 19,2013

Dcar Mr. Axenfeld:

The Edna McConneU Clark Foundation (EMCF) thanks yOli for the opportunity to respond to the
Corporation for National & Community Service (hereinafter. CNeS or the Corporation) Office
oflnspector General's (OiG's) draft report submitted to EMCF on Apl'i l19, 2013. EMCF
understands the importance of complying with federal regulations and effectively ensuring that
subrecipients are in full compliance with federal and CNeS requirements. EMCF has leveraged
this process as an opportunity to improve its exjsting submonitoring procedures.

EMCF is reassured that the agreed upon procedures carried out by the CHftonLarsonA llen LLP
(CLA) were able to confinn many of the findings that EMCF had identified in the process of
carrying out its subrecipient monitoring. EMCF concurs with most of the findings and looks
forward to resolving all outstanding issues with CNCS in a mutually satisfactory manner. The
only finding we do not concur with is Finding I (b), as explained below.

As stated in the report by CLA, EMCF utilizes a nationally recognized CPA firm to assist us
with implementing rigorous and comprehensive submonitoring of our subrecipients. EMCF uses
a risk-based approach for its submonitoring, assessing the subrecipients and attributing a risk
score which deteffilines whether a subrecipient is a high, medium or low risk with respect to
compliance. While all of our subrecipients undergo rigorous submonitoring, the number of site
visits and desk audits a subrecipient receives and their scope of coverage is detenn ined by their
assessed risk category.
EMCF meets wi th the CPA finn that assists EMCF with the submonitoring on a weekly basis to
discuss the status of the overall submonitoring plan and open items from the prior week. On a
quarterly basis, we review our assumptions for future site visits and desk audits and discuss any
hi gh level compl.iance matters. Based on our current program, we have identified many similar
findings to those identified in this 010 report and have disallowed over $ I mi llion of expenses.
The majority of those disallowances resulted from untimely national sex offender checks. For
subrecipient site visits, we have instructed our CPA firm to lest the ent ire population of grantee
staff charged to the grant and related criminal hi story check documentation.

If fi ndings result from a desk audit or site visit, we require subrecipients to develop corrective
action plans, and to update those plans on a quarterly basis. In additi on , as part of the site visit
and desk audit procedures, we requi re the CPA firm to comment on compliance with co rrect ive
action plans through the firm's testing program.

As part of EMCPs own corrective actions, we have refined our submonitori ng test procedures to
mirror the procedures conducted by CLA. In addition, EMCF has asked the CPA fum to expand
its testing and monitoring procedures around payroll processing, 1-9 documentation, and
recalculation of fringe benefit rates.

EMCF continues to take various steps to strengthen its monitoring process related to criminal
history checks, payroll, and reporting, as well as the compliance of its subrecipients. In March
20 13, the Foundation hosted a mandatory refresher training on criminal hi story checks and
payroll processing. All subrecipients and the CPA finn sent staff members to attend the session.
At the training, we distributed the following materials to update and remind subreci pi ents of their
compliance obligat ions:

   •   Corporation FAQ on Criminal HistOlY Checks 11-30-12
   •   Corporation current table of designated state repositories 01 -02-1 3
   •   Corporation Fact sheet on Vendors 09-13-12
   •   Obtaining FBI fin gerprint check 01-14-13
   •   ASP request guidance and fonn 03 -0 1-1 3
   •   PowerPoint file of the presentation which included
          o Results and findings of the OIG audit process
          o Detailed review of the Criminal History Check process
          o Payroll Processing and Time Sheet Documentation
          o Reporting

We will continue to review and refine our submonitoring processes and procedures, and our
future improvements wi ll take into consideration the find ings in this report.

Please see below for our response to the findings in the fomlat requested:
Finding 1 - National Sex Offender Public Registry Searches

   a.   National Sex Offender Public Registry Search Was Conducted After The Employee
        Started Working On The Grant

   b. National Sex Offender Public Registry Searches Were Not Conducted For Both The
      Employee 's Maiden and Former Married Names

EMCF agrees w ith Finding I(a) above. However, as stated in the criteri a provided in the report,
with respect to Finding I (b), the search for maiden and fomler married names is not currently a
requirement of the National Sex Offender Crim inall-li story check, and the Co rporation has not
ind icated or provided additional guidance that would make the search for maiden and fonner
married names a required e lement tor the criminal history check process. EMCF follows and
instructs subrecipients to follow current Corporation guidance. EMCF agrees with this as a best
practice recommendatio n but disagrees that this should be a finding.

Recommendations:
Ia) EMCF submitted a waiver req uest in February 2013 to the Corporation which, if approved,
would eHminate the questioned costs cited in this report. A similar req uest was made with
respect to a nonRaudited subreci pi en t, and this request was approved. Items that EMCF
previously discovered through its s ubmmonitoring process for which we determined that a
waiver should not be sought were disallowed by EMCF. We are prepared to fu lly d isall ow a11
costs iftbe wa iver is not approved.

1b) As we stated in our openi ng comments, we have taken steps to refine and improve o ur
submonitoring procedures. We look forward to implementing any further recommendations that
the Corporation will make in the course of this process.

Ie) EMCF does not take a position on this recommendation since it is strictly a recommendation
being made to Corporation. It does, however. highlight the fact that the Corporation's FAQs
currently do not require searches to be conducted with maiden, married or fonned married
names. EMCF is nonetheless ready to impl ement any change in guidance related to the criminal
history process that the Corporation sees fi t to promulgate.


Finding 2 - State Criminal Registry Searches Were Improperly Conducted

   a) State Criminal Registry Search Was Not Authorized By The Employee

   b) State Criminal Registry Search Was Not Conducted On The State In Which The
      Employee Resided At The Time Of App lying For Employm ent

   c) State Criminal Registry Searches Were Not Conducted Us ing The Corporation's
      Designated State Criminal History Repositories
   d) There Was No Documentation That State Criminal Registry Search Results Were
      Considered In Determining Whether An Employee Was Eligible To Work On The Grant

   e) Ineligible Employees Were Allowed To Work On The Grant

EMCF agrees with all of the above findings. Please see corrective actions taken by EMCF
described in our opening comments that address these findings, including mirroring the
procedures conducted by eLA.

Recommendations:

2a) EMCF looks forward to working with the CNCS to resolve these questioned costs. For
BELL's and SEED's questioned costs, EMCF submitted ASPs and waiver requests to the CNCS
in October 20U and February 2013 respectively, which, if approved, would eliminate the
questioned costs in this report. For CEO, we look forward to further guidance from the CNCS to
detennine whether these questioned costs should be disallowed.

2b) EMCF has con finned with CEO that no further costs were charged to the grant for the
ineligible employees and that the employees were removed from the programs funded by the
grant.

2c) As stated in aUf opening comments, EMCF has taken the necessary steps to refine and
improve our submonitoring procedures. E MCF looks forward to implementing any further
recommendations that the Corporati on will make in the course of thi s process.


Finding 3 - Employment Eligibility Was Not Verified

   a) [-9 Form Was Completed After Employee Started Working On The Grant

   b) 1-9 Form Was Not Updated After Employee Was Rehired Within Three Years From The
      Date The Foml Was Original1y Completed

   c) 1-9 Ponn Was Missing Date Of Employment Or The Date Verification Was Conducted

EMCF agrees with all of the above findings. Please see corrective actions that have been
implemented to address these findings as described in our opening comments.

Recommendations:

As stated in our opening comments, EMCF has taken steps to refine and improve its
submonitoring procedures. EMCF looks forward to implementing any further recommendations
that CNCS will make in the course of (hi s process.
Finding 4 - Subrecipient Employee Time Sheets Had Deficiencies

    a) Time Sheet Was Approved Before End Of Pay Period

    b) Missing Date The Supervisor or Employee Signed the Time Sheet

    c) Employees Were Paid Before Time Sheets Were Signed By the Employee andlor
       Supervisor

   d) SUbrecipient Did Not Account For All Employee Hours Worked In Calculating Costs
      Charged To The Grant

EMCF agrees with all of the above tindings. Please see corrective actions that have been
im plemented to address tllcse findings as described in our opening comments.

Recommendations:

4a) EMCF looks forward to working with CNCS to resolve these questioned costs in future
discuss ions.

4b) As stated on page J, EMeF has taken steps to refine and improve its submonitoring
procedures. EMCF looks forward to implementing any further recommendations that CNCS will
make in the course of this process.

Finding 5 -Incorrect Fringe Benefit Rate Was Used To Calculate Employee Fringe
Benefits Charged To Tile Grant

EMCF agrees with the above finding. EMCF has ensured that BELL self-corrected the $384
questioned cost by deducting that amount from its January report and that BELL is using the
correct fringe rate going forward.

Recommendations:

5a) EMCF has resolved the costs as stated above.

5b) As stated on page I, EMCF has taken steps to refine and improve its sl1bmonitoring
procedures. EMCF looks forward to implementing any Miher recommendations that CNCS will
make in the course of thi s process.

5c) EMCF has resolved the fringe benefit issue as stated above.
Finding 6 - Quarterly Financial Reports Were Submitted Late To EMCF

EMCF agrees with the finding, Please see corrective actions that have been implemented to
address these tindings as described in our opening comments,

In addition, EMCF has developed an internal mechanism that will remind subrecipients of their
reporting deadlines one day before the applicable due date, with appropriate follow up in the
form of emails or phone calls when the reports have not been received by the beginning of the
business day after the due date, EMCF believes that such processes wi ll help ensure timely
submiss ion of reporting in the future,

Again, EMCF was encouraged that the findings within this report were consistent with those
fOlll1d in EMCF's submonitoring process, We appreciate the open and efficient manner in which
CLA operated and we look fOlWard to working with CNCS in resolving open items.

Respectfully yours,


      LfI.
Nancy Roob
President
                       APPENDIX B
_______________________________________________________________
  CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                RESPONSE TO DRAFT REPORT




                              26
                                 NATIONAL&
                                 COMMUNITY
                                 SERVICEtttC

To:            ~",a!l-5'1!J;n.c.,a, A.51" 1 1ll~'ISp<'9("Gencral for Audit

From:                                              'V.'ants Management

Date:

SUbject:       Response to DIG Draft of Agreed-Upon Procedures for Corporation
               For National and Community Service Grants Awarded to the Edna
               McConnell Clark Foundation


Thank yOll for the opportunity to review the draft Agreed-Upon Procedures report of
CNCS's grants awarded to the Edna McConoell Clark Foundation (EMCF). We will
respond with our management decision after we receive the final report and have
reviewed the auditor' s working papers and EMCF's corrective action plan. We wi ll work
with EMCF representatives to ensure its corrective action adequate ly addresses aLI audit
findings and recommendations.

Cc:     David Rcbich. Chief Financial Officer
        Lois Nembhard, Deputy Director of Operations, Social Innovation Fund
        Valerie Green~ General Counsel
        Doug Hilton, Director, Office of Accountability and Oversight
